<html>
<title> - INVESTING IN AMERICA'S SURFACE TRANSPORTATION INFRASTRUCTURE: THE NEED FOR A MULTI-YEAR REAUTHORIZATION BILL</title>
<body><pre>[Senate Hearing 116-52]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 116-52

INVESTING IN AMERICA'S SURFACE TRANSPORTATION INFRASTRUCTURE: THE NEED 
                 FOR A MULTI-YEAR REAUTHORIZATION BILL

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 10, 2019
                               __________

  Printed for the use of the Committee on Environment and Public Works
    
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  

        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-495 PDF                 WASHINGTON : 2019         
        


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 10, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Reiner, K. Luke, Director, Wyoming Department of Transportation..     7
    Prepared statement...........................................     9
Braceras, Carlos M., P.E., President, American Association of 
  State Highway and Transportation Officials.....................    17
    Prepared statement...........................................    19
    Responses to additional questions from Senator Shelby........    28
Kuney, Max, President, Max J. Kuney Co...........................    31
    Prepared statement...........................................    33
Wicks, Carolann, P.E., Senior Policy Fellow, University of 
  Delaware, School of Public Policy & Administration.............   108
    Prepared statement...........................................   110
Arroyo, Vicki, Executive Director, Georgetown Climate Center.....   115
    Prepared statement...........................................   118

 
INVESTING IN AMERICA'S SURFACE TRANSPORTATION INFRASTRUCTURE: THE NEED 
                 FOR A MULTI-YEAR REAUTHORIZATION BILL

                              ----------                              


                        WEDNESDAY, JULY 10, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (chairman 
of the committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Braun, Rounds, 
Boozman, Ernst, Cardin, Whitehouse, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I call this hearing to order.
    Today's hearing is about the need for this committee to 
draft and to pass a bipartisan highway infrastructure bill. 
Both Ranking Member Carper's staff and my staff have been 
working on drafting this legislation, along with all of the 
members of this committee. We appreciate all the input that we 
have received from our home States, our fellow members and from 
transportation stakeholders.
    It is our shared goal to advance a bill out of the 
committee this summer. That means the Senate Environment and 
Public Works Committee will be first out of the gate to pass a 
highway infrastructure bill. This is appropriate, given this 
committee's history of initiating bipartisan efforts to pass 
previous surface transportation bills.
    We have crumbling roads and bridges, and they desperately 
need to be repaired and replaced. Projected population growth 
and existing congestion requires States to build new capacity 
to meet future needs. Our economy is built on a well-
functioning road system that allows products from rural areas 
to get to our population centers. America's work force uses our 
highways to get to the office, the factory or to the farm.
    In 2015, the U.S. transportation system moved a daily 
average of about 49 million tons of freight that was worth more 
than $52 billion. That is a daily average. Annually, that is 
around 18 billion tons of freight valued at over $19 trillion. 
These numbers are only going up. According to the Department of 
Transportation, by 2045, our aging roads and bridges will carry 
an additional 4 billion tons of freight annually. Our Nation's 
highways need to keep pace.
    The authorization of the Federal highway funding will 
expire in September of next year. The Congressional Budget 
Office projects that the Highway Trust Fund will become 
insolvent some time in 2021. Our bridges and roads are in need 
of serious investment.
    I am working with Ranking Member Carper to advance the most 
substantial bipartisan highway bill ever passed by Congress. 
We, along with the other members of the committee, are working 
to pass a 5-year highway infrastructure bill to fix our roads, 
our bridges and our highways. If we do not pass a long-term 
surface transportation bill, and instead pass a series of 
short-term extensions, we will undermine our States' abilities 
to plan for these challenges. It is not a good option. We have 
an obligation to get this done.
    Our highway infrastructure legislation would be for all of 
America. It will ensure both rural and urban areas have access 
to funding. That means maintaining each State's share of 
highway formula funding. Formula funding gives each State the 
flexibility that they need to address their specific surface 
transportation needs.
    Maintaining the Federal Highway Program's current approach 
of distributing over 90 percent of the funds to the States by 
formula is the key to this. Using a formula-based approach 
expedites the delivery of highway infrastructure spending. So 
States get the funds they need faster. It is a proven approach 
that works for everyone and should be continued.
    Our bill will also speed project delivery through 
streamlining. By cutting Washington red tape, highway projects 
can get done better, faster, cheaper, and smarter. In our 
legislation, we must reduce the time it takes for Federal 
permitting, to lower paperwork burdens on States. We need to 
incorporate innovative construction approaches and other 
technologies.
    This will be the most substantial highway bill ever passed 
by Congress, and it needs to be paid for. The Environment and 
Public Works Committee doesn't have jurisdiction over the 
revenues for the highway bill. Ranking Member Carper and I are 
going to work with other members to find ways to responsibly 
pay for the legislation.
    I believe highways should be paid for by their users. I am 
committed to making sure that everyone who uses the roads 
contributes to maintaining and improving them. That must 
include electric vehicles and other alternative fuel vehicles, 
which will become an increasing share of the cars on the road. 
We will also work with other surface transportation committees, 
including the Commerce and the Banking Committees, to include 
their input in the legislation as we move to the Senate floor.
    I am thankful to Ranking Member Carper for his partnership, 
and look forward to continuing to work together with him in a 
bipartisan way to pass a surface transportation infrastructure 
bill, a bill that will grow America's economy, that will 
improve the safety of our roads, and will enhance quality of 
life for the American people.
    I would now like to recognize Senator Carper for his 
opening remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Mr. Chairman, thank you for your kind 
words.
    To our witnesses, to let you know, one of the joys of 
serving here in the Senate, you think all we do is fight with 
one another, actually we work together pretty well, too. We try 
to really set an example in this committee to our colleagues, 
both in the Senate and in the House. I think that is what the 
people of our 49 States plus Delaware tell us what they want, 
and that is what we try to do. It is a joy to work with 
Chairman Barrasso, his staff, and frankly, with any of our 
colleagues. We are happy you are here. Thank you so much for 
coming today. I know some of you came on fairly short notice 
and we are grateful for that, especially.
    It is an honor to be joined by a panel as distinguished as 
the five of you. I want to especially extend a warm welcome to 
my seat mate on the train coming down from Delaware this 
morning, Carolann Wicks, who was our Transportation Secretary 
for a number of years, had a 28-year career at DelDOT and has 
gone on to do other great things with her life. Welcome.
    It is my hope today that our conversation will serve to 
inform this committee's ongoing work as we proceed with 
negotiating the reauthorization of our Nation's Surface 
Transportation Program. I want to begin by sharing why I 
believe this particular reauthorization is so important.
    Just last week we celebrated the 243d anniversary of the 
signing of our Nation's declaration of independence, 243 years. 
I remember that day.
    [Laughter.]
    Senator Carper. Not really. A day on which our founding 
fathers asserted Americans' inalienable rights to life, 
liberty, and the pursuit of happiness. I often link these three 
inalienable rights with the work we do on this committee, 
because Americans cannot be guaranteed life, liberty, or the 
pursuit of happiness without clean air to breathe or safe water 
to drink. The fact is, Americans cannot truly enjoy life, 
liberty, or the pursuit of happiness without a safe 
transportation system that nurtures our economy, protects our 
environment and enhances our mobility.
    Over the 4th of July holiday weekend, some 49 million 
Americans traveled on our roads, highways and bridges, in order 
to be able to head for the nearest beaches, hike mountain 
trails, go fishing or camping or visit loved ones or visit and 
celebrate our Nation's history. They visited all of our States. 
Some of them even made it to the 49th largest State in the 
U.S., that is us, to enjoy our five-star beaches, tax-free 
shopping, and much more. Others traveled to places like 
Yellowstone National Park in Wyoming, to Denali National Park 
in Alaska, and to the Grand Canyon, to experience some of our 
Nation's many natural wonders.
    Wherever the destination, these trips had at least one 
thing in common: almost all of us relied on our Nation's 
transportation systems to get us to those destinations. 
Hopefully, most travelers found the roads and bridges they 
traveled on smooth and uncongested, they were able to arrive 
safely at their destination on time. Unfortunately, that was 
not always the case. Based on data from previous years, we know 
that roughly 600 people died over the holiday weekend, as they 
were navigating our roadways. That is more than the total 
membership of the U.S. House and the Senate combined.
    We also know that as Americans traveled over the holiday 
weekend, we released billions of tons of harmful greenhouse gas 
emissions, contributing to our climate crisis. Emissions on 
holiday weekends are even higher than usual due to increased 
traffic. In some cities, emissions have been three or even four 
times worse than average.
    While none of us travel with the goal of sitting in 
traffic, or getting into an accident, or worsening climate 
change, some of our roadways are so outdated, they are in 
dangerous condition, or in desperate need of redesign, that 
they are leading to outcomes that none of us want. For too many 
travelers, there are simply no low-emission travel options 
available. Electric vehicles are an option, but without a 
comprehensive national network of electric vehicle charging 
infrastructure and other alternative fueling infrastructure in 
place, many consumers lack the confidence needed to purchase 
the electric vehicles that can help us address our climate 
crisis.
    In order to address these challenges, our committee began 
bipartisan work on the next reauthorization bill to our 
transportation program earlier this year, as the Chairman has 
said. I am proud to say that we have made demonstrable 
progress, thanks to the contributions of every member on this 
committee, every member on this committee. Thanks to the 
leadership of Senator Barrasso, our Chairman, as well as the 
hard work of our staff members. We thank you all.
    As we have undertaken this work, we have recognized that we 
start with transportation programs that help us achieve many of 
our mobility goals, but can still be improved. I like to say 
everything we do, I know we can do better. But particularly 
with respect to enhancing climate resilience, reducing harmful 
emissions, and improving safety. For example, just this past 
week, people in Maryland, Virginia and Washington, DC. 
experienced record-breaking rain and flash flooding. Nearly 
four inches of rain fell in 1 hour, 1 hour, right here. Water 
was seeping into the White House and all kinds of buildings, 
washing our roads, flooding transit stations, creating 
sinkholes and leaving many commuters stranded. Some roads, I am 
told, still remain impassible.
    Not far away from here, Ellicott City, Maryland, has 
withstood two 1,000-year floods in less than 2 years. A 
thousand-year flood is something that is supposed to happen 
once every thousand years. We have had two in an 18-month 
period in nearby Ellicott City.
    But earlier this year, communities across Nebraska, Iowa, 
Missouri, and other parts of the Midwest experienced 
unprecedented flooding that destroyed bridges, dams, and 
levees. One stretch of InterState 29 in Missouri was flooded 
with 15 feet of water. As we gather here today, 11 States are 
reporting enormous wildfires, including fire in Alaska, where 
nearly 700,000 acres have burned this month. That is an area 
almost the size of Rhode Island.
    Our Nation's scientists tell us that climate change, left 
unchecked, means even more frequent and intense storms, more 
record-breaking rainfalls, bomb cyclones and wildfires the size 
of even larger States. Smart planning and targeted investment 
in the resilience of our Nation's infrastructure will ensure 
that roadways can better withstand these worsening effects of 
climate change. This will save American taxpayers untold 
billions by allowing us to avoid rebuilding the same 
infrastructure projects again and again after severe weather 
events.
    At the same time, smart investments in electric charging 
and low emission alternative fuel infrastructure will provide 
travelers with better choices so traveling to loved ones 
doesn't come at the expense of our climate.
    It is also essential that we make the safety of our 
roadways a top priority. More than 37,000 people are dying on 
our roads each year. They are our friends and our neighbors and 
our constituents. We can do better than that, a lot better than 
that, especially for the bicyclists and pedestrians who are 
sadly, the growing share of the deaths we are seeing all over 
our States.
    We also know it is imperative that we better ensure that 
the roads and transportation systems that we design and build 
today will continue to meet the travel and commerce needs of 
the future. That includes integrating new technology, so that 
the advanced vehicles that are increasingly automated will be 
able to operate safely on our roads in the future.
    Finally, I believe that a long-term focus on national needs 
must include identifying new sources of sustainable user fee-
based revenues to support investments into transportation, as 
the Chairman has suggested. In closing, these are some of the 
important issues where I believe this committee can find 
bipartisan agreement, and doing so, lead by example for other 
committees who will be responsible for developing other titles 
of a major surface transportation reauthorization.
    The work that we do on this committee is of critical 
importance to the people of our Country. None is more important 
than work that we focus on today. The people who we are 
privileged to represent are counting on us. Let's show them 
that we are up to the challenge by doing our part by helping to 
restore our surface transportation program's solvency, so that 
we can keep that promise of life, liberty, and the pursuit of 
happiness on which our Nation was founded.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    To our friends in the audience as well as our witnesses, we 
have a series of three votes this morning, starting at 11 
o'clock. So you will see members coming and going. But there is 
great interest in this hearing, but you will see some of that 
commotion up here. We apologize for that, but we will continue 
the hearing throughout all of this, as different people chair 
the committee meeting during, so that you will be able to 
continue uninterrupted in your testimony and in the 
questioning.
    Before we hear from our witnesses, I want to take a moment 
to welcome to the committee Luke Reiner, the Director of the 
Wyoming Department of Transportation. Luke was appointed the 
18th Director of the Wyoming Department of Transportation in 
just March of this year. He has recently retired as the Adjunct 
General for Wyoming for our National Guard. In that role, he 
directed the Wyoming military department in Cheyenne, where he 
was responsible for formulating, developing and coordinating 
all policies, all plans, and programs that affected more than 
3,000 Army and Air National Guard Members.
    Director Reiner served as a commander of a camp in Kuwait 
during Operation Iraqi Freedom II, and he commanded the Wyoming 
Army National Guard's 115th Fires Brigade. I know we have 
another deployment coming shortly. He has received numerous 
rewards and honors for his remarkable service to our Country. 
He has an extensive educational background, which includes an 
accounting degree and a Master of Public Administration degree 
from the University of Wyoming.
    Director Reiner, I want to thank you for your service to 
our Country and for everything you are doing for the people of 
Wyoming. Thank you for being here to testify today. I now would 
like to call on Senator Carper to introduce a witness from 
Delaware.
    Senator Carper. Thanks, Mr. Chairman. I would ask that her 
bio, which we have as part of our record, be included as part 
of our record for Carolann Wicks. I have had the privilege of 
not just riding on the train this morning from Wilmington with 
our former Secretary, but to have known her and to call her my 
friend for, gosh, over three decades.
    I want to just briefly mention, she grew up in Delaware, 
was educated in Delaware, University of Delaware as a civil 
engineer, as I recall. Went to work at DelDOT and served there 
for 28 years.
    I call her the Czarina of the bicycling evolution that 
started in our State a long time ago. We used to not be a very 
good biking greenway State, and we are now, we are among the 
best. And it started really with her early involvement. She 
went on to become our DelDOT Secretary, and served with great 
distinction.
    If you ever drive through Delaware and you are on I-95, 
that a good part of what she did. We actually resurfaced I-95 
from Wilmington, Delaware, to the Pennsylvania line, shut down 
I-95, the year that I was running for U.S. Senate, and I still 
won. I still won, and people said, have you lost your mind? She 
ran that project, resurfaced I-495 through our State both ways, 
built State Route 1, which goes all the way from I-95 down past 
the Dover Air Force Base. And you name it, she was involved in 
it.
    The riverfront, if you come through Wilmington on the 
train, you look out at the Christina River, where the first 
Swedes and Finns landed in America, gosh, 380 years ago, that 
transformation was one that she worked on, for a million 
different projects. She went on to become a partner in RK&K and 
still helps out in any variety of ways. Lives on a farm, has a 
very successful family farm in the middle part of our State, 
and we are just delighted that she is here today. Thank you 
very much again, Carolann, for joining us.
    Senator Barrasso. And Senator Carper, in addition to those 
distinguished guests, we also have Carlos Braceras returning to 
the committee, President of the American Association of State 
Highway and Transportation Officials, and also the Executive 
Director of the Utah Department of Transportation. And Max 
Kuney, who is the President of Max J. Kuney Company, testifying 
on behalf of the Associated General Contractors of America. And 
the Executive Director of the Georgetown Climate Center, Vicki 
Arroyo. I agree all of you. Welcome here.
    Senator Carper. Mr. Chairman, Carlos keeps coming back 
again and again. We are going to have to put him on the 
payroll. He is a frequent flier when it comes to this 
committee.
    [Laughter.]
    Senator Barrasso. I would like to remind the witnesses that 
your full written testimony will be made part of the official 
hearing record, so please try to keep your statements to 5 
minutes so we have time for questions. I look forward to 
hearing the testimony from each of you, beginning with Mr. 
Reiner.

 STATEMENT OF K. LUKE REINER, DIRECTOR, WYOMING DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Reiner. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the committee. Good morning. My name is 
Luke Reiner and I am privileged to be the director of the 
Wyoming Department of Transportation.
    Chairman, thank you for that very kind introduction. On 
behalf of the men and women serving in uniform, thank you for 
your solid and consistent support of them. And thank you for 
supporting transportation as well.
    I am pleased to report to you that the transportation 
departments of Idaho, Montana, North and South Dakota have 
joined in our written statement today. We do wish to commend 
you, Mr. Chairman and Ranking Member Carper, for your hard and 
very timely work on needed reauthorization legislation. We 
applaud your effort to move legislation through the committee.
    In terms of our rural States, we recommend your legislation 
do five key things. First would be continued Federal support 
for transportation in rural States. We see such support as 
necessary to keep the Country connected and move goods to 
market.
    Second would be a continued emphasis on formula funding. 
Formula dollars are delivered as projects more promptly than 
discretionary dollars.
    Third, several thoughtful, regulatory reductions would be 
helpful and would allow each program dollar to deliver greater 
benefits. We see potential regulatory reductions in both 
project delivery processes and administrative requirements.
    Fourth, additional funding is certainly needed and if 
received, would be put to use promptly in an environmentally 
responsible way in order to enhance safety, increased mobility, 
work to create jobs and strengthen the economy. Fifth, a multi-
year reauthorization is essential for States to be able to 
effectively deliver the program.
    Let me turn to a few additional points. It is worth noting 
that rural States actually contribute significantly per capita 
to the highway account of the Highway Trust Fund. Nationally, 
the annual per capita contribution is approximately $117. The 
contribution from rural States is much higher, with Wyoming 
currently being the highest at $312.
    On another topic, we support repeal of the approaching $7.6 
billion rescission of highway contract authority. This repeal 
is needed to ensure program flexibility and funding, and thank 
you, Mr. Chairman and Senator Carper, for your leadership in 
this repeal effort.
    In terms of transportation safety, we ask Congress to 
continue to set aside the wireless communication spectrum 5.9 
gigahertz currently received for transportation safety. Some 
have called for opening this portion of the spectrum for use by 
fifth generation cell phones in non-safety-related activities. 
We see that change as having a significant negative impact on 
our Nation's efforts to reduce fatalities. Wyoming is currently 
a leader in developing this spectrum for transportation safety 
purposes, and we certainly ask Congress to help protect the 
spectrum for transportation safety use.
    In summary, I would like to reemphasize that significant 
Federal investment in transportation in rural States benefits 
the Nation by positively affecting almost every sector of our 
economy. The Nation, its people and commerce benefit from 
cross-country traffic. In Wyoming, about 90 percent of the 
trucks on InterState 80, which runs east to west, have origins 
and destinations outside of the State. That is clearly national 
transportation and warrants Federal investment.
    I would also like to reemphasize that streamlining 
regulatory processes and requirements will enable 
transportation dollars to be put to work more effectively, 
while still protecting the environment and other public 
interests. Simply put, Federal investment in highways and rural 
States helps move people and goods throughout the Country and 
helps move agricultural, energy and natural resources to 
market.
    We believe that our highways can better advance these 
important national objectives if legislation is structured with 
a strong emphasis on formula funding and thoughtful 
streamlining of regulatory burdens. We certainly commend the 
committee for its efforts to move a reauthorization bill 
promptly and thank you once again for the opportunity to 
present testimony today.
    [The prepared statement of Mr. Reiner follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thanks so much for your testimony. 
Very useful information. Thank you.
    Mr. Braceras.

  STATEMENT OF CARLOS M. BRACERAS, P.E., PRESIDENT, AMERICAN 
   ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Mr. Braceras. Chairman Barrasso, Ranking Member Carper and 
members of the committee, thank you for the opportunity to 
appear here today and address the critical need for timely 
reauthorization of the Federal surface transportation 
legislation.
    As mentioned, my name is Carlos Braceras, and I serve as 
the Executive Director of the Utah Department of 
Transportation, and I am the current President of the American 
Association of State Highway and Transportation Officials, 
which includes the State departments of transportation in all 
50 States, Washington, DC, and Puerto Rico.
    First, allow me to express the State DOT's collective 
appreciation to this committee for getting the next Federal 
transportation bill done on time and for your desire to repeal 
the $7.6 billion rescission of the highway contract authority 
scheduled for July 2020. Your recognition of the importance of 
maintaining regular order in the business of Congress is 
something every State strongly supports.
    My testimony today will emphasize four main points. No. 1, 
ensure the timely reauthorization of a long-term Federal 
surface transportation bill. We recognize that a well-
functioning and safe transportation system is the foundation of 
a strong economy and quality of life. It is this 
interconnected, multi-modal national system that has enabled 
the United States to become the most vibrant and powerful 
nation in history.
    The investment backlog for transportation infrastructure 
continues to increase, reaching $836 billion for highways and 
bridges, and $122 billion for transit. In order to simply 
maintain the current Highway Trust Fund spending levels 
adjusted for inflation, Congress will need to identify $90 
billion in additional revenues for a 5-year bill, or $114 
billion for a 6-year bill. At the same time, the purchasing 
power of the Highway Trust Fund revenues has declined, losing 
over half its value in the last 26 years.
    After FAST Act expiration on September 30th of 2020, the 
Highway Trust Fund is expected to experience an estimated 51 
percent drop in highway obligations from the year before, and 
is zeroing out of obligations for the mass transit account 
around 2021 or 2022. The lack of stable, predictable funding 
from the Highway Trust Fund makes it nearly impossible for 
State DOTs to plan for large projects that need a reliable flow 
of funding over multiple years. Americans and members of both 
parties agree that it is extremely important to invest in our 
Nation's transportation system. We can harness this momentum by 
completing the FAST Act reauthorization before October 2020 
without relying on any short-term gaps.
    Two, increase and prioritize formula-based Federal funding 
provided to States. The heart and soul of the federally funded, 
State-administered highway program has been perfectly suited to 
a growing and diverse Nation like ours. As your committee 
unveils your FAST Act reauthorization bill later this month, we 
urge you to focus on maximizing Federal formula-based dollars 
provided directly to States through the existing core formula 
programs, and to continue to consolidate Federal programs.
    Three, increase flexibility, reduce program burdens, and 
improve project delivery. To further enhance the effectiveness 
of Federal funding, we recommend increased flexibility and 
transferability between the various Federal programs. Even with 
significant progress having been made this past decade, getting 
projects done still takes too long. We believe there remains 
opportunity to improve the National Environmental Policy Act 
process, but also make the NEPA process work more effectively 
with other Federal requirements.
    State DOTs continue to implement MAP-21 performance 
management framework. The first reporting cycle is not expected 
to be completed until 2022, at earliest. As such, we ask that 
this body refrain from considering new performance measures and 
changes to existing regulations that would increase 
requirements until at least two full reporting cycles.
    Four, support and ensure State DOTs' ability to harness 
innovation and technology. There is no opportunity greater than 
cooperative, automated transportation which has been defined as 
all modes of transportation working together to improve safety 
and mobility through interdependent vehicle and infrastructure 
automation and information exchange.
    The top priority for the State DOTs and AASHTO has been and 
will always remain safety. Connected vehicles utilizing vehicle 
to everything communication in the 5.9 gigahertz spectrum will 
save lives. We must work together to preserve the 
transportation safety spectrum.
    Beyond automated transportation, I would like to emphasize 
that State DOTs are at the forefront of practitioner based 
innovative deployment of innovative materials which can improve 
safety, reduce costs and increase the overall life of our 
Nation's highway transportation system. We ask Congress to 
preserve the flexibility for States to choose the types of 
technology investments that best maximize that value.
    In conclusion, State DOTs remain committed to assisting 
Congress in the development of the next surface transportation, 
and will ensure enhanced quality of life and long-term economic 
growth through sound Federal investments. We cannot emphasize 
enough how much State DOTs and AASHTO value the longstanding 
partnership with this committee.
    I want to thank you again for the opportunity to testify 
today, and I am happy to answer any questions that you may 
have.
    [The prepared statement of Mr. Braceras follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. Braceras.
    Mr. Kuney.

    STATEMENT OF MAX KUNEY, PRESIDENT, MAX J. KUNEY COMPANY

    Mr. Kuney. Chairman Barrasso, Ranking Member Carper and 
members of this committee, thank you for convening today's 
hearing, and more important, for your commitment to moving 
forward on a reauthorization of the FAST Act well before the 
Act expires in September of next year.
    My name is Max Kuney. I am a fourth-generation 
infrastructure contractor from Spokane, Washington, serving 
this year as the chairman of AGC's Highway and Transportation 
Division.
    Mr. Chairman, America's transportation infrastructure, both 
urban and rural, needs significant repair, replacement and 
expansion. Reports provided by the Federal Highway 
Administration, based on State DOT data, identify a litany of 
troublesome facts, including failing and underperforming 
pavements, bridges that are structurally deficient or don't 
meet modern specifications, congestion caused by insufficient 
capacity in key locations, inadequate intermodal connections 
and safety hazards. From coast to coast, our transportation 
infrastructure is showing signs of distress.
    All of this is coming at a time when an increasing 
population, growth in vehicle use and significant increases in 
freight movement will add to the strain on our transportation 
infrastructure. Just one example is that the level of heavy 
truck traffic nationally is anticipated to increase by 
approximately 56 percent from 2018 to 2045, putting greater 
stress on the Nation's roadways. As our economy continues to 
grow and global competition increases, there will be an 
expanding need for new infrastructure improvements to support 
our manufacturing, farming, service, technology and industrial 
sectors. All of this leads to an opportunity for this committee 
and Congress to pass a well-funded reauthorization bill that 
addresses our current and future transportation needs.
    Federal highway funding has historically been critical to 
capital investment in highways and bridges, and it is important 
that this funding continues and grows. On average, States use 
52 percent of their annual Federal aid allocation for capital 
investment projects, with that percentage higher in many 
smaller population States. The existing program structure and 
funding formula allows States the flexibility to address their 
individual priorities and specific requirements, while also 
supporting the overall need for a strong, well-functioning, 
interconnected national transportation system. Assuring States 
that the Federal Government will continue to be a reliable 
partner in funding and delivering a safe and efficient national 
surface transportation network should be a top priority.
    While reauthorization is an opportunity, failure to meet 
the deadline will negatively impact addressing our national 
transportation needs and put the U.S. further behind. AGC urges 
Congress to not repeat the mistakes of the past by kicking the 
can down the road with numerous short-term extensions. This 
uncertainty in the flow of Federal aid funding has caused 
project delays and cancelations, resulting in higher costs and 
slowed transportation improvements.
    States postpone or slow down their planning, design, 
permitting and construction projects because of uncertainty. 
Prior to the FAST Act passage in 2015, short-term extensions 
caused 15 State transportation agencies to delay or seriously 
consider canceling payments on contracts for transportation 
improvement projects worth over $1 billion when the 
reimbursements from the Highway Trust Fund were slowed.
    Of course, the final issue in the FAST Act reauthorization 
is addressing the Highway Trust Fund's revenue deficit. Shortly 
after the FAST Act expires in September 2020, there will be a 
minimum of $18 billion per year shortfall in the revenue needed 
just to maintain current funding levels. AGC urges Congress and 
the Administration to act sooner, rather than later.
    AGC believes the Highway Trust Fund revenue solution must 
include real, reliable, dedicated and sustainable revenue 
sources derived from users, and the beneficiaries of our 
surface transportation system, resources sufficient to end the 
chronic shortfalls and support increased investment, and be 
dedicated solely to surface transportation improvements. 
Increasing the Federal Motor Fuels Tax is the simplest and most 
effective way to achieve this goal. AGC joins our many partners 
in the business community and organized labor in supporting 
such an increase. Now is the time for the Federal Government to 
do what 33 States have done since 2012: enact a revenue package 
to support increased transportation investment.
    Congress and the Administration must take advantage of the 
strong support for infrastructure investment to solve the 
Highway Trust Fund's long-term solvency by providing real and 
growing revenue to address our surface transportation needs. 
This committee and its leaders are an essential component to 
making this priority a reality. That is why I not only feel 
grateful to be here, but am hopeful that my words will help lay 
the foundation for your successfully passing a transportation 
infrastructure package.
    Mr. Chairman, thank you again for allowing AGC to 
participate in today's discussion. I look forward to your 
questions.
    [The prepared statement of Mr. Kuney follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks so much for your testimony.
    Ms. Wicks.

   STATEMENT OF CAROLANN WICKS, P.E., SENIOR POLICY FELLOW, 
      UNIVERSITY OF DELAWARE, SCHOOL OF PUBLIC POLICY AND 
                         ADMINISTRATION

    Ms. Wicks. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the committee. Thank you for inviting me 
here today to give you my perspective on the importance of 
reauthorizing the surface transportation legislation.
    As a previous cabinet secretary for the Delaware Department 
of Transportation and now as a senior policy fellow at the 
University of Delaware, I hope my testimony today will be a 
helpful addition to your deliberations on this critical 
legislative issue.
    I believe the FAST Act provided many positive policy and 
funding changes that have served us well in delivering needed 
infrastructure improvements, such as a greater focus on 
pedestrian and bicycle facilities and safety, funding freight-
related highway improvements, streamlining the environmental 
review process, and increasing funding for public 
transportation. It is the momentum from this legislation that 
we need to build on to solve the many transportation challenges 
remaining.
    These challenges are well documented by the American 
Society of Civil Engineers infrastructure report card. 
Unfortunately, we have all become too familiar with our 
infrastructure receiving a D plus based upon ASCE's evaluation 
of capacity, condition, and funding. The D plus grade means our 
Country's infrastructure remains in poor condition, mostly 
below standard, at high risk of failure, and inadequately 
funded.
    This illustrates the significant backlog of projects needed 
to address operational problems as well as capacity 
improvements to meet current and future demands. This backlog 
of projects also contributes to the significant number of 
highway, pedestrian and bicycle fatalities and serious injuries 
we experience each year.
    With limited resources, maintaining and rehabilitating 
existing infrastructure, optimizing the efficiency of the 
system, and addressing safety issues remains a primary focus of 
the DOTs. However, climate change has added a new external 
impact to the transportation system that requires new 
strategies and technologies to improve our resiliency. A long-
term, comprehensive approach is needed to anticipate future 
impacts to transportation infrastructure and create funding 
plans that will help mitigate these impacts.
    It is also an opportunity to implement policies and focus 
capital investments on reducing greenhouse gas emissions that 
contribute to climate change. As an example, DelDOT has 
embraced these challenges by developing a Strategic 
Implementation Plan for Climate Change, Sustainability and 
Resilience. This plan recognizes the need for greater 
resiliency due to the vulnerability of the State's 
infrastructure to withstand and recover from weather related 
incidents.
    Transportation is at the heart of a strong economy. Having 
a reliable multi-modal transportation network is the foundation 
of economic prosperity and a quality of life we have come to 
expect. The quality of this network will also influence a 
State's ability to retain and attract companies, as well as the 
work force needed to support these jobs. Businesses need to 
rely on the commitments made by governments to deliver the 
needed infrastructure that will not only support the needs of 
the broader public, but will help determine a company's level 
of investment into a community. Federal, State and local 
governments need to work collaboratively on all regulatory 
processes to be efficient, time sensitive, and deliver high 
quality improvements that support the environment while 
addressing safety and capacity issues.
    Adopting a partnership mentality between the public and 
private sectors is also important to funding and delivering 
improvements. This approach has been the basis for Delaware's 
successful redevelopment of the Wilmington Riverfront. The 
transportation improvements became the key to attracting new 
businesses. What once was a highly contaminated industrial area 
has turned into a thriving employment and entertainment 
destination, with new high-density residential areas that are 
supported by the Joseph R. Biden Railroad Station on Amtrak's 
northeast corridor.
    Investments in wetland preservation and bicycle and 
pedestrian facilities were integrated into the master plan and 
are key elements of why this area has become an attractive 
place to live, work and play. A critical component of this 
redevelopment initiative was the Federal funding that enabled 
DelDOT to build new interState connections to support access 
into the area. These were large financial investments but 
necessary to provide sufficient roadway capacity. Committing to 
these improvements and the other infrastructure elements not 
only brought jobs to the riverfront, but has created the 
momentum for other redevelopment projects in downtown 
Wilmington.
    Our transportation investments support the welfare and 
safety of the traveling public, provide healthy lifestyle 
transportation choices of walking and biking, reduce our 
greenhouse gas emissions through more public transit services, 
and are key to our economic prosperity. The timely 
reauthorization of the surface transportation legislation is 
critical to addressing our current infrastructure gaps and our 
future investment needs.
    Thank you for your time and I look forward to your 
questions.
    [The prepared statement of Ms. Wicks follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so much for your testimony.
    Ms. Arroyo.

   STATEMENT OF VICKI ARROYO, EXECUTIVE DIRECTOR, GEORGETOWN 
                         CLIMATE CENTER

    Ms. Arroyo. Good morning. Good morning and thank you, 
Chairman Barrasso, Ranking Member Carper and committee members. 
I am Vicki Arroyo, Executive Director of the Georgetown Climate 
Center and Professor from Practice at Georgetown Law. I also 
chair the Executive Committee of the Transportation Research 
Board, and recently chaired the TRB Resilience and 
Sustainability Task Force, and served on the study of the 
future of the interState highway system. While I am proud of 
these affiliations, my comments today are my own.
    Since my initial introduction to global climate change as a 
staffer to Governor Buddy Roemer of Louisiana, my home State, 
on an NGA task force 30 years ago, the science underlying our 
understanding of the causes and impacts of climate change has 
only become more definitive. As our Federal agencies and 
academies of sciences have determined, multiple lines of 
evidence indicate that our atmosphere is warming, sea levels 
are rising, the magnitude and frequency of extreme weather 
events are increasing, and human activity is the primary 
driver. The world must rapidly decarbonize, cutting greenhouse 
gas emissions in half by 2030, and to near zero by 2050.
    Despite this, U.S. emissions increased in 2018. The 
transportation sector is the largest sector and itself is 
facing impacts from climate change.
    There is an urgent need to transition to a low-carbon and 
more resilient transportation system that would bring 
additional benefits, including protecting public health by 
reducing air pollution, providing more mobility options, and 
driving innovation and economic growth from policy and through 
public and private investment. U.S. States are seizing the 
opportunity to transition to a low-carbon transportation 
solution.
    For example, the northeast and mid-Atlantic States launched 
the Transportation and Climate Initiative, or TCI, in Delaware, 
10 years ago, to develop the clean energy economy, improve 
transportation and reduce emissions. This collaboration of 
energy, environment, and transportation agencies from 12 
States, it is bipartisan, and D.C., is facilitated by our 
center, but very much led by the States that we serve. TCI 
States have been working together to design a regional policy 
that accelerate this low-carbon transition.
    Congress has an opportunity to expand on such initiatives, 
fund innovative programs that expand access to transportation, 
and support new technologies that offer promise for emissions 
reduction and economic growth. In the TCI process, diverse 
stakeholders have offered strategies, including pricing carbon 
and investing in solutions, such as electrification of 
transportation, smart growth and transit-oriented development, 
and improving ports and other freight facilities where 
communities often face higher levels of pollution. The future 
of the interState highway system study encouraged consideration 
of our transportation system as a whole, recognizing the 
importance of providing alternatives, including support for 
complete streets and transit to address congestion.
    Our highway system connects communities and supports 
commerce. Federal leadership is needed to shift to low-carbon 
and more resilient transportation. Reauthorization provides an 
opportunity to remove barriers to innovative technology 
deployment, such as barriers to solar power installations and 
EV charging along highways. Electric cars, like my Chevy Bolt, 
are more efficient and reduce pollution, even when considering 
power plant emissions. As the grid shifts to cleaner 
electricity, they will emit less over time. A robust network of 
highway corridor fast charging will grow the market for EVs.
    The FAST Act encouraged and instructed FHWA to designate 
alternative fuel corridors but did not provide the funding 
needed to drive investments in charging stations. This 
important Federal funding can be strategically invested to 
maximize impact, including by leveraging existing State and 
regional partnerships and planning, and provide technical 
resources to identify gaps in EV charging infrastructure. To 
allow for innovation and avoid stranding assets, Federal 
investments could require that charging stations funded by 
Federal grants be interoperable. Federal investments can be 
targeted in rural and remote corridor locations underserved by 
the private market, growing the EV market while spurring 
economic development.
    Decarbonizing trucks and buses is also important. The 
Federal Government can play a role in enabling deployment of 
battery electric and hydrogen fuel cell vehicles.
    There is also a need to ensure our transportation system 
can withstand climate change impacts. This year, we have seen a 
record number of flood disasters, as we have heard from Senator 
Carper, in Iowa, North Dakota, Oklahoma, Arkansas, Vermont, 
South Dakota, and even the historic flash flood that just 
happened here in D.C. Coastal villages in Alaska are losing sea 
ice and are vulnerable to storms that are causing erosion, 
leaving communities to face difficult decisions about 
relocation. Coastal States like Maryland and Delaware are 
seeing nuisance flooding that is happening on even sunny days.
    Federal hazard mitigation grants save $6 for every $1 
spent, yet many States and cities are struggling to prepare and 
need more Federal support. Congress should ensure that Federal 
infrastructure investments are built to withstand flooding, 
increased heat, and other climate impacts. Recipients of 
Federal funding should consider how climate change will affect 
infrastructure and assets in the future.
    Our transportation resilience case studies featured in our 
adaptation clearinghouse highlight State and local efforts, 
including New York's Community Risk and Resiliency Act and 
Maryland's Coast Smart program.
    In summary, States and communities need tools and technical 
assistance, and should have incentives to plan and modify codes 
and standards ahead of disasters to facilitate resilient 
rebuilding when funds are available. Beyond infrastructure, 
Federal funding should also support operational improvements, 
including strategies to help people evacuate safely.
    Thank you.
    [The prepared statement of Ms. Arroyo follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so much for your testimony and 
the testimony of each of you.
    We will start with rounds of questions, and I would like to 
ask the representatives here from Wyoming and Utah and 
Delaware, if Congress fails to enact a multi-year highway bill 
and instead passes a series of these short-term extensions, 
what the impact is going to be on States like Wyoming and Utah 
and Delaware in terms of planning, in terms of highway 
construction, in terms of road and bridge maintenance and even 
safety. Ms. Wicks, if you would like to start.
    Ms. Wicks. Thank you, Mr. Chairman. Yes, it is extremely 
disruptive to programs. Engineering projects take time, whether 
you are planning, design, funding for construction. All of that 
becomes very unpredictable if you can't know for sure how much 
money and resources will be available going forward.
    There is also a psychological effect on staff. When you are 
trying to motivate your staff to continue to aggressively go 
after projects, work hard, keep them delivered on time, it is 
difficult to maintain that enthusiasm and that energy level 
when there is this roller coaster of, maybe we will have it, 
maybe we won't. So there is even that factor that I think 
sometimes we seem to forget.
    I also think how the public interprets our inability to go 
back out with confidence and say, yes, it is going to be here 
in a year, it will be here in two, here is our timeline, here 
is what we plan to do.
    Senator Barrasso. Mr. Braceras, anything you would like to 
offer and add?
    Mr. Braceras. Yes. Just to add that a little bit, Mr. 
Chairman, a couple of things. One, as a public official, the 
currency that I have is the public's trust, the trust the 
elected officials have in me. When we put together a long-term 
plan, all States put together a State transportation 
improvement plan, a STIP. It is usually a 4-year plan of 
projects; we call them the funded 4 years of projects.
    If you picture where we are right now, we are looking out 
in our STIP, out past the FAST Act. So we all make assumptions, 
what level do we program out past the FAST Act right now. I 
have made, I have guessed, that it is going to be flat funding. 
So we have programmed projects out in those out years based on 
that Congress will reauthorize the program at a flat level.
    Now, I could be wrong, I could maybe have over guessed what 
we have done. You notice that unless we find new money, we are 
going to be obligating at about 50 percent, 51 percent of what 
is available in the trust fund. Then what happens is I have to 
delay or cancel projects. That breaks down that trust. Because 
every one of those projects is much needed, it is anticipated. 
They are safety projects; they are projects that will improve 
the infrastructure.
    So having predictability, long-term predictability of 
funding is really key for us to be able to build the public's 
trust in order to deliver the right projects.
    Now, the other key is, we all want to get the most value 
out of the investment that you are making from Congress. The 
way we do that is we advertise; we say we advertise the right 
project at the right time. So we try to get some competition 
from our contractors. We can't just dump the same type of 
projects out onto the contractors at the same time in the same 
geographic area, because then we will not get the level of 
competition that we need to have to assure the public's 
investment is best served.
    So if we can have that predictability, that long-term 
predictability in these projects, we will deliberately decide 
that we are going to advertise it, this project, it is an 
asphalt project, I have this many bidders that will compete for 
that in this geographic area at this time and I will get the 
best value. So from the end of the day, Mr. Chairman, if we can 
keep the public's trust and get more value out of the public's 
investment, that long-term that long-term predictability is 
key.
    Senator Barrasso. Thanks. Mr. Reiner, anything to add?
    Mr. Reiner. Mr. Chairman, thank you. I agree with what Mr. 
Braceras said. To put a Wyoming spin on it, very frankly, the 
impact would be a change in how we do business. It will result 
in slower delivery of smaller projects, because of the funding 
uncertainty.
    Certainly, in times of safety, we will find a way to handle 
the emergency highway and bridge repairs. But there will be 
many safety projects and other issues that are simply deferred.
    As has been pointed out, planning certainly becomes more 
complex and uncertain. It would, it would simply have a 
significant impact on us as a State and how we do business.
    Senator Barrasso. When you use the phrase, slower delivery 
and smaller projects, it makes me think of what we have heard 
from a number of State departments of transportation, that the 
departments of transportation non-environmental requirements 
could be reduced to give more flexibility and reduce 
administrative burdens so States can focus on priorities and 
actually do things faster rather than the slowing down of 
things.
    One idea is to make stewardship and oversight agreements 
and make them simpler, less prescriptive. The agreements can be 
unnecessarily complex that we have, often contain numerous 
Federal requirements and approvals that really shouldn't be 
required or aren't required by statute.
    Could you see opportunities for these kinds of 
opportunities to be improved by the Federal Government in terms 
of being more flexible?
    Mr. Reiner. Mr. Chairman, absolutely. You described it very 
well. We would say simply that we would request for fewer 
requirements and more flexible terms, and think there are easy 
ways to do that.
    Senator Barrasso. Thank you so much. Senator Carper.
    Senator Carper. Thanks, Mr. Chair.
    General Reiner, you were Adjutant General, weren't you, in 
your State, for a number of years? How many years?
    Mr. Reiner. Senator, I was the Adjutant General for 8 
years.
    Senator Carper. That is great. Did you know Frank Vavala?
    Mr. Reiner. I did. He is a great gentleman.
    Senator Carper. One of the two most popular nominees for 
appointments I ever made as Governor, we nominated him, I think 
he served for 20 years.
    Mr. Reiner. He served us all for a long and faithful time.
    Senator Carper. He sends his best to you today.
    I want to start the questioning, again, thank you all for 
this wonderful testimony. It is very much welcomed. I want to 
start, if I can, with Secretary Wicks. Almost everybody has 
said, we need to fund these projects, we need certainty, we 
need predictability. We can look at the States, the States are 
being bold in terms of doing their share, of meeting their 
obligations. I think leading by example for us, we are too 
timid when it comes to actually funding these projects. 
Everybody knows we need to spend more money, we need to spend 
it wisely, we need to make sure that the streamlining 
provisions we put in, whether environmental or non-
environmental, are actually being implemented and the staffs 
are in place at the Federal level and the local level to 
actually fully implement those. We need to do oversight to make 
sure that they are being implemented well.
    I want to ask Carolann, if you will, in terms of funding, 
talk to us a little bit to us about what we have done in 
Delaware with respect to funding using tolling. Especially as 
we have gone away from--if you will allow me to stop, I would 
say to my colleague from West Virginia, I remember as a kid the 
West Virginia turnpike where you would like, drive 10 miles, 
stop, put in a quarter, drive 10 miles, stop. People hated 
that. People hated the Delaware Turnpike, coming up 95, having 
to stop and pay $4 for the privilege of going like 15 miles 
through Delaware and have to wait forever to get through our 
State. They hated it.
    Now we have Express, EZ Pass, Highway Speed EZ Pass. People 
go through, it is charged to their Master card or whatever, and 
they are on their way. No muss, no fuss. I think this has 
really opened up a new opportunity to make tolling a better 
option for States than maybe we have done in the past. Would 
you share what we have done with 301? If you come out of 
Washington heading east on Route 50, go across, pass Annapolis, 
over the Bay Bridge. You come to a place where you can turn 
right, so on 50 you go to the beaches, the Delaware-Maryland 
beaches. If you turn left, you are on 301, which is a 
beautiful, beautiful, four-lane road through beautiful farm 
country. And you get to Delaware.
    For years, you would go to Delaware and you slowed down. 
You had traffic lights, you had Middletown and congestion 
before you could ever get up to I-95. We have done something 
about it with some partnership. Would you just talk about that?
    Ms. Wicks. Yes, Senator, the 301 project that you 
referenced is really a shining example of how we have, as a 
State, partnered with the Federal Highway Administration to 
deliver a project that really, we could not do on our own. We 
could not do it without really looking at ways to finance that 
and using the tools that are in the toolbox from FHWA. We were 
able to use Garvey bonds back when we were looking at 
accelerating and starting the design and real eState 
acquisition. So we were able to get out of the gate by being 
able to have those bonds in place to do that and fund those 
phases.
    We were then able to use some TIFIA loans that also 
provided us another source of funding to keep ourselves going 
through the process. Then ultimately, we used revenue bonds, 
actually a longer term, a 40-year revenue bond that was not as 
traditional but that helped us be able to spread out the 
payments and be able to have a sustainable source to pay back 
those bonds.
    It has gotten off to a great start. It has been a project 
that has been long heralded as a needed project, not only for 
safety and removing some truck traffic off of our local roads, 
but it has also been recognized as something that would be an 
important way to help the economy and the development of 
southern Newcastle County.
    Senator Carper. Thank you. Ms. Arroyo, did you say you 
drive a Chevrolet Bolt?
    Ms. Arroyo. A Bolt, which is 100 percent electric.
    Senator Carper. I was at the Detroit Auto Show about a year 
or two ago, it was named the car of the year. A decade earlier, 
the Chevrolet Volt was named the car of the year. Volt is a 
hybrid; the Bolt is all electric.
    Ms. Arroyo. Yes.
    Senator Carper. When the Volt was announced as the car of 
the year, it got about 38 miles on a charge, then it had to go 
on gasoline. Bolts, when it was announced as car of the year a 
year or two ago, it was 240 miles on a charge.
    Ms. Arroyo. Yes, I am getting over 250.
    Senator Carper. And the folks who are driving the Bolts are 
fortunately not putting out any pollution. But by the same 
token, they are not really paying for the use of the roads, 
highways, bridges, that they are using. The Chairman says that 
there needs to be some way to collect funds for that.
    I think ultimately what we need to move to is a vehicle 
miles traveled approach. That is maybe by 10 years from now, we 
ought to be doing that nationally, increasing the large pilot 
projects leading up to that. Have I lost my mind on this, 
General, or does this make some sense to you? We will just go 
down the line, just very briefly, just one sentence. 
Eventually, does vehicle miles traveled, is that where we ought 
to get ready to go in terms of the user fee approach?
    Mr. Reiner. Senator, we certainly see a need for increased 
revenue. I am not here to tell the Congress how to fund it. But 
certainly we will put the funding to good use.
    Senator Carper. Mr. Braceras.
    Mr. Braceras. Yes, Mr. Ranking Member, maybe a little 
example on what we are doing with our legislative in Utah might 
be useful. Two years ago, the legislature increased the fees 
for electric vehicles. It ratcheted it up 30 percent each year, 
and it is going to top out here in January 2020. This was done 
in conjunction with directing the department of transportation 
to develop a voluntary road usage charge program. So we will 
have that up and operational this January. Folks that drive 
electric vehicles can choose to continue to pay the increased 
registration fee, or they can participate in the road usage 
charge program. If they participate in that program, we have 
capped it, so no matter how many miles they drive, they will 
not pay more than they would have paid under the registration 
fee.
    So for us, this is a time to ask some really good questions 
about how this can work. So we will have an operational road 
usage charge program coming up here within 6 months.
    Senator Carper. Good. We can learn from you. Max, really 
quickly.
    Mr. Kuney. When you look long term, VMT is potentially 
where we might need to be. AGC is very supportive of anything 
that will fund the Highway Trust Fund for sure. The gas tax is 
the easy, short-term answer. But when you look long-term, we 
are supportive of a national pilot to see.
    There are some real challenges in collection and the costs 
associated with it, but you are correct, as you move to more 
and more fuel-efficient vehicles, more electric vehicles that 
don't use any gas at all, the gas tax is a diminishing return 
for a funding source.
    Senator Carper. Very briefly, Secretary Wicks, and then Ms. 
Arroyo.
    Ms. Wicks. I would concur with my colleagues. It is, I 
think, a very positive future, forward-looking way to look at 
the funding. It hopefully would be more equitable, because it 
would focus on who is using the roads and for how long and how 
much. Working out the technology of it is already underway with 
pilot projects, with the I-95 Corridor Coalition and other 
programs throughout the Country. We should be hopeful that will 
provide us a new source.
    Senator Carper. Thanks. Very quickly, Vicki.
    Ms. Arroyo. I agree that I think Congress needs to consider 
EVs as part of a longer-term strategy for funding the highway 
system that we all agree is underfunded. Some States, like 
Oregon and the I-95 corridor States are experiment with 
mileage-based user fees. Some through the Transportation and 
Climate Initiative, or in California, are looking at carbon 
pricing.
    Many, as you heard, over 30, have raised their own gas 
taxes. Some are going to tolling. So there are a lot of 
different ways that we can raise revenues without only focusing 
on EVs, which a lot of States are trying to promote right now.
    Senator Carper. Thank you. Mr. Chairman, I like to say 
there are no silver bullets in this funding issue. Lots of 
silver BBs, and some are better than others and we need to 
learn from the States and see which are good.
    We now have with us our chair and the ranking member from 
our Transportation and Infrastructure Subcommittee. I want to 
salute them and their staffs for the great work and leadership 
they are providing as we go through this process.
    Senator Braun.
    [Presiding] Thank you, Senator Carper. Senator Boozman.
    Senator Boozman. Thank you, Senator Braun. Mr. Braceras, 
Arkansas recently had, I started to say significant, but it was 
record-breaking floods, both in height and just the force of 
the water. Tremendous damage, lots of damage to the 
infrastructure.
    The good news is, like Utah, Arkansas is working very hard, 
and they are going to recover. Great leadership in our State 
and all those kinds of things. I guess what I would like to do 
is, and again, so many of our States have gone through this 
lately. You experienced it, I believe, in 2015, in that area. 
Tell us what you learned, how you built back and mitigated 
perhaps from future floods, to help in that regard.
    Mr. Braceras. Thank you, Senator, for the question. I think 
one thing that all State DOTs excel at is responding to 
emergencies and disasters. The men and women that work in these 
departments are amazing people.
    Senator Braun. They do a tremendous job.
    Mr. Braceras. They just do a great job responding to that.
    I think the partnership that we have with our contracting 
industry and our consulting industry was key to our ability to 
respond. We have limited staff, as every DOT does. When a 
disaster happens, whether it be flooding, whether it be 
avalanches that we deal with, or lately, some massive forest 
fires, we rely on our partnerships with our consultants to help 
give us the answers and for our contractors to respond 24-7 to 
emergency contracting proposals.
    I would say that the challenge isn't over once the public 
thinks we have mitigated the danger. We get the roads back 
open; I think that's the time when we need to step back and we 
need to think about, what are we going to do to help this 
facility be more resilient to this type of occurrence in the 
future. That is something all the DOTs are working on right 
now.
    I just picked up yesterday, I was up in Delaware attending 
the national conference. And a document that we are putting 
out, with the help of TRB, Transportation Research Board, it is 
for all DOT directors, talking about resilience, a DOT 
imperative. What we can do to help make our systems better 
prepared for this changing environment.
    Senator Boozman. In regard to the Federal Government 
response, what did you learn in that regard? Are there some 
things that we can do better?
    Mr. Braceras. First of all, we are blessed in Utah with the 
partnership we have with our division administrators. I think 
that is one really important lesson. When you look at USDOT and 
even some of the other Federal agencies, the Federal Highway 
Administration, that modal administration, has people, 
employees on the ground in every State. What we do is we 
develop these working relationships with them that allow us to 
get things done.
    So when an emergency happens, they are one of the first 
people we contact, and they are working shoulder to shoulder 
with our employees. Because if we are going to be turning 
around and asking the Federal Government to help us, either 
through emergency relief or through FEMA funds, to help pay 
back some of the money that we have had to lay out there, and 
we basically pull it from other projects, much-needed projects, 
we need to do the right things. We need to document things in 
the right way.
    That is one thing that they do really well. That process 
could probably be streamlined a little bit. The ability to be 
able to incorporate more resilient features with the use of 
some of that emergency money I think would be a much better 
investment for the public right now. Pretty much, we can 
replace what is there in kind. That is not, sometimes, the 
smartest thing to do with the public's investment.
    Senator Boozman. Mr. Kuney, Arkansas is a small State, but 
we are blessed with a thriving trucking industry. I believe we 
have 5,000 trucking companies. Of those, 90 percent operate 
with 20 or fewer trucks. We have the bigs and the littles. The 
transportation industry is critical to our State and critical 
to the Nation.
    Tell us about the impact, if we don't take care of the 
infrastructure, what that does to the economy, and also what it 
does to the trucking industry in regard to wear and the cost in 
that regard.
    Mr. Kuney. Sure. One dramatic instance that I know of where 
in the trucking industry and not taking care of our 
infrastructure came together was in 2013, when a truck hit the 
Skagit River Bridge north of Seattle and collapsed that bridge 
into the river. My company did the permanent replacement of 
that on an emergency design build. But that was a very dramatic 
instance of substandard bridge, too low, the cross members 
arched down, the truck was in the wrong lane, and hit it and 
down it went.
    Senator Boozman. The really great example there was the 
fact that they rebuilt it in a year. If they had , again, not 
skirting any issues in regard to safety, but everybody working 
together as opposed to, probably 10 or 20 years.
    Mr. Kuney. So actually, there was one company that put up 
the temporary bridges in about a month, and we did the 
permanent replacement in 88 days. We were way short of a year.
    Senator Boozman. Oh, yes. So why can't we do that?
    Mr. Kuney. Well, that was obviously an emergency. It is 
InterState 5; it was the main north-south corridor for the 
State of Washington. But you are right, every agency came 
together to make that happen from Federal agencies right down 
to the dike district, that we had to get access over their 
levee to get to the site. Everyone was absolutely committed and 
focused and when you do that, I wouldn't say that is possible 
in every job, this was a pretty extreme example, but it 
definitely worked there.
    Senator Boozman. Thank you. Thank you, Mr. Chair.
    Senator Braun. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. First, I want to 
concur in our Chairman and Ranking Member's initial comments 
that it is very important that this committee take the lead and 
pass a multi-year reauthorization. I hope it is at least 5 
years. I was whispering to the Chairman, it would be nice to 
get beyond 5 years, as we have done in the past. But at least a 
5-year, to get predictability, so that those that are planning 
major projects know that there is a dependable Federal partner.
    I look forward to working with the Chairman and Ranking 
Member and Chairman Capito on the subcommittee on getting this 
moving forward.
    There are so many needs out there. There are so many major 
needs. I think I will start with first, the north-south highway 
in the western part of my State that connects West Virginia, 
Maryland, and Pennsylvania, which is critically important for 
the economic growth of that region of our Country. I could talk 
about the Howard Street Tunnel, which is critical for freight 
rail on the east coast of the United States, that needs to be 
replaced. It is only about 120 years old, that tunnel, and it 
can't do double-stacking. That needs to be done. I could talk 
about the bridge between Virginia and Maryland, the Nice bridge 
that literally needs to be replaced before it falls down and we 
have another terrible episode that we could talk about. The 
need for commuter rail, rapid rail transit, the list goes on 
and on.
    I am particularly pleased that we have been able to 
accommodate not just our State partners, but our local 
partners. And the Transportation Alternative Program dollars, I 
hear about that every time I visit a county in Maryland, they 
tell me how important those funds are for the local community 
to stay connected, so that they can transverse their community 
without having to get into cars, or a much more efficient way 
for safety issues or to accommodate their local development 
issues.
    So for all those reasons, it is important that we move 
forward with reauthorization, and I very much appreciate the 
Chairman's candid comments about making sure that it is 
adequately funded. I think all of us have to step back a little 
bit, Senator Carper and I, and Senator Whitehouse, are all on 
the Finance Committee, so we are going to have to deal with it 
on both committees. But I think we are all going to have to 
back up a little bit and say, look, we are going to have to 
compromise here, and figure out a way that we can get a bill to 
the finish line that has adequate revenues in it. That is going 
to be one of our challenges.
    I want to followup on a point with Mr. Braceras, that you 
pointed out, about resiliency. We experienced a pretty bad week 
here in Maryland and Washington. In Frederick County, we had 
about six inches of rain in 2 hours, which is unprecedented. It 
has really challenged our infrastructure.
    So you mentioned resiliency. What can we do in the Federal 
reauthorization to put attention to the realities that we have 
to deal with what has happened out there, with our 
infrastructure being able withstand the assault that is taking 
place every day?
    Mr. Braceras. Thank you for that question, Senator. The 
realization with most of us in the State DOTs right now is that 
the infrastructure system that we have built over the last 100 
years is not going to be the infrastructure system that we need 
in our Country for the next 100 years. It needs to change and 
we need to help it adapt.
    One of the things we have been working on within the State 
of Utah, and we have been working on it within our association, 
AASHTO, to help all the other State DOTs, is to start to better 
understand what those risks are associated with our different, 
we refer to them as lifeline corridors. So we will try to 
narrow in on our transportation system, identify what are those 
lifeline corridors, what are those roads that get us to the 
hospitals and to those critical areas that people need to be. 
Then design those, basically, to a higher level. So we will 
design them at a higher seismic level, we are in a high seismic 
area in Utah. So they will have a higher seismic level. We will 
also look at it from a flooding perspective, from a wildfire 
perspective.
    Senator Cardin. And that is important. But how does the 
Federal program help you do that?
    Mr. Braceras. Sorry, Senator. I believe that the Federal 
program first needs to--this is an evolving field right now. 
This is a research project that just got done at this point. I 
think the Federal Government can continue to help support our 
associations and our State partners in helping develop these 
risk assessments for these facilities. Help us better 
understand--we need a programmatic way in which to make these 
decisions. As you mentioned, there are so many needs out there. 
If we are not deliberate and strategic about picking which of 
those areas that we need to focus on to give us the highest 
return, based on a good risk analysis, then I think we are 
going to be shotgunning this approach.
    So I think helping us identify a good way to approach this 
from a risk-based statistical analysis would be very helpful. 
And then as we move forward, States would be able to start to 
put together a program.
    Senator Cardin. Let me take my last 3 seconds and ask Ms. 
Arroyo.
    Ms. Arroyo. If I could just build on that a little bit, 
because our center, our adaptation work is led by Jessica 
Grannis, behind me here. We work with States and cities. They 
need more guidance and assistance from the Federal Government 
with expertise, down-scaled modeling to inform what changes are 
underway. They need pre-disaster assistance so that they can 
plan for the next disaster, change their codes and standards so 
they are allowed to build differently when the disaster money 
flows.
    And post-disaster, there could be better coordination 
across agencies. I think FHWA has done some really great work, 
but to coordinate with FEMA and align definitions and cost 
benefit analysis, that would really streamline things quite a 
bit.
    Senator Cardin. I will just make a very quick comment. I am 
ranking with Small Business. We are looking at disaster relief 
funds for planning before disasters occur. We are having that 
in Transportation. We need to beef up the planning capacity 
that we have. I think we can play a role in that in the 
reauthorization.
    Senator Braun. Senator Capito.
    Senator Capito. Thank you very much. I want to thank the 
chairman and the ranking member, and also my cohort on the 
Subcommittee on Transportation and Infrastructure. Our staffs 
have been working very well on this. We are very close to a 
bipartisan bill and we have such mutual desire to get this 
done. I refuse to be pessimistic.
    Some of the things that we have looked at are regulatory 
improvements to expedite project deployment. Many of the things 
that you have talked about, supporting utilization of our 
natural infrastructure, and also other ways to reduce cost and 
increase resiliency. We have talked about this.
    In terms of the pre-disaster mitigation, we did pass--I 
chair the Homeland Security Subcommittee on Appropriations, 
which funds FEMA. We did have in there this past year a pre-
disaster mitigation fund that I think is going to be very 
helpful for big and small communities. I would start, I guess, 
with those that have repetitive issues, which in my State of 
West Virginia, we have several of those.
    I want to talk about economic recovery has had divergent 
paths for rural and urban America. I live in a rural State. Our 
biggest city is 50,000, and I wouldn't say that is too urban. A 
beautiful State, but we have declining tax revenues, we have 
issues in terms of difficulty getting from place to face, we 
have a lot of deficient bridges, we are in the top five for our 
deficiency in bridges. I want to make that a separate question.
    Starting with you, Mr. Reiner, where do you see the biggest 
obstacle for rural America in terms of the next highway bill? 
You mentioned the capacity it takes to meet all the challenges 
of the regulatory environment, and that could be streamlined. 
If you could dig into that a little bit for me.
    Mr. Reiner. Senator, thank you for that question. We would 
certainly, as we look to the future, really say that 
maintaining the formulary and the formula funding is important 
to us in rural States from a standpoint of quick and efficient 
use of the money.
    Senator Capito. Right.
    Mr. Reiner. And then in terms of regulations, we do think 
there are ways to streamline, specifically in the stewardship 
and oversight types of agreements, to make them simpler and 
easier to understand, and less onerous in terms of regulation.
    Senator Capito. Mr. Braceras, do you have a comment on 
that?
    Mr. Braceras. Yes, thank you, Senator. The State of Utah is 
interesting in that as a State we are doing tremendously well 
from an economic growth perspective. But that growth is taking 
place really in our six urban counties. We have 23 counties 
that Governor Herbert is really focused on that are not doing 
as well.
    So we are looking at aspects of how our transportation 
planning, we can come in and provide transportation planning 
services for these communities. We are doing it with State 
dollars. What we are doing is, we are asking them the question, 
what can we do to help you become the community of your dreams, 
and then, how can transportation help facilitate that.
    The government is bringing all the State cabinet agencies 
together on this mission of trying to help these communities 
kind of develop that uniqueness that might give them that 
little bit of advantage. We are trying to move State jobs out 
into rural Utah and provide the opportunity for State employees 
to telecommunicate more, so that they can still have a State 
job, but they can do it from rural Utah.
    So I think any type of flexibility you can provide in the 
program to allow States to use the funding to be able to help 
these communities, because there is not one size fits all. I 
can go to so many rural counties and it is going to have 
different issues.
    Senator Capito. Right. Ms. Wicks, I am going to shift to my 
bridge question, because I would imagine in Delaware, you have 
quite a few bridges. We have quite a few deficient bridges. 
What we have found, I think, and I think we are trying to 
remedy this in our legislation is, if a Governor has a choice 
to build a five-mile, four lane highway or fix a deficient 
bridge, we all know what is going to have a bigger kick back 
home. Not to say they are ignoring bridges, but you have to set 
priorities.
    What are you finding in Delaware with your bridge 
reconstruction, and what could we do in this bill to help with 
that?
    Ms. Wicks. I think you are right, rehabbing a bridge and 
its substructure is not very sexy.
    Senator Capito. Right.
    Ms. Wicks. So another project can certainly seem to get a 
better headline. We have maintained a rehabilitation approach. 
We have been able to educate our legislators and our elected 
officials and the public that preventative care will then yield 
greater rewards financially than having to wait too long and 
then we have a reconstructive approach to the bridges.
    This has served us well, and we are able to have that 
timely inspection, to be able to act upon that, to use 
technology to make the assessments and be able to efficiently 
combine improvements into a package that is either done by our 
maintenance folks or that we put it out to bid.
    So I think trying to be able to communicate the benefits of 
doing that early, rather than waiting and how much more costly 
those improvements will be. And just the whole sense of safety 
to the traveling public, and not seeing the postings and school 
children having to go around and school buses. That message is 
something we have just continued to drive home year after year. 
It has paid off.
    Senator Capito. All right. Thank you all very much.
    Senator Barrasso.
    [Presiding] Thank you, Senator Capito. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and thank you for 
your work to try to push this forward. I know we don't have a 
budget, a capped funding agreement with respect to this, which 
is, I think, a real liability. But as we continue to push 
forward, I think we are making that more likely. So thank you 
for doing that.
    In the FAST Act, we required the National Academies of 
Science, Engineering and Medicine to do a report on innovative 
materials. They did so. It took a while, but it is out. And 
they came up with three recommendations. I am quoting from page 
73 of the report. ``A new Federal program to provide incentives 
for innovation in bridge construction, research needs to 
develop and evaluate innovative approaches to reducing the 
installed and life cycle costs of highway bridges, and other 
actions to encourage innovation to reduce life cycle costs of 
bridges.''
    On the program, they describe the Federal program can 
provide incentives for innovation and bridge construction, they 
point out the numerous technologies, I am reading again here, 
``at various stages of development, hold the promise for 
improving bridge performance and reducing life cycle costs. 
However, most require further development, evaluation or 
promotion to increase awareness of their potential among bridge 
owners. Congress should create a new Federal bridge innovation 
incentive program, administered by the Federal Highway 
Administration, to advance such technologies and to promote 
their use in U.S. highways.''
    Back in March, Mr. McKenna, an AASHTO witness, said in 
response to a QFR of mine, ``It is important that any 
infrastructure bill include provisions to encourage the use of 
innovative materials for not only bridges, but other material 
as well. The use of new, innovative materials can make a bridge 
last longer, signs appear brighter from a long distance, or 
traffic signals operate more efficiently. Innovative materials 
can improve safety, reduce costs and increase the overall life 
of the Nation's surface transportation infrastructure. Specific 
to bridges, AASHTO agrees with the conclusion of the National 
Academies of Science report that using advanced materials and 
technologies does reduce costs and construction time, resulting 
in less impact to the traveling public.''
    Mr. Braceras, I assume you still agree with that statement?
    Mr. Braceras. Senator, we absolutely agree that taking a 
strategic approach to research, innovation and advanced 
materials is critical for our future. If you look at where the 
great advances have been in the development of our highway 
program, you can go back to the Strategic Highway Research 
program that Congress funded and was carried through by the 
Transportation Research Board. Then FSHRP and SHRP 2, all the 
big things that we are doing today have helped and facilitated 
through that research program.
    One of the things that the SHRP 2 program did that was 
really good is there was money provided to help States 
implement those types of things. That is really sometimes the 
difficult leap for States to make, is that implementation 
piece.
    Senator Whitehouse. And the reason is that there might be a 
spec for legacy material and not a spec for the new material, 
and it takes a little bit more effort and a little bit of, as 
you say, kind of intellectual risk, although these tend to be 
safer materials, to work through it at the bureaucratic level. 
And that is where the program that the National Academy of 
Sciences recommends comes in, to help balance the equation 
toward helping the innovative materials be at least on a level 
playing field with the legacy materials.
    Mr. Braceras. And having Federal Highways work in 
partnership with the States, so that the States still get to 
choose what to implement and where. If the Federal Government 
is working in partnership to help mitigate that risk, give the 
States a little bit of cover, that will help with that 
implementation decision.
    Senator Whitehouse. So let me thank the Chairman and the 
Ranking Member for their continued work to help get the IMAGINE 
piece, the innovation materials piece, agreed to under this 
draft. I also want to thank the Chair and the Ranking Member 
for getting the Bridge Investment Act in. We still need, 
obviously, dollars for it, but it is important that it got in.
    There are two programs, the Coastal Infrastructure Program, 
which is obviously very important given Ms. Arroyo's testimony. 
It is really important for those of us who have coastal 
infrastructure that is facing basically being overwashed by 
rising seas and storms. But at the moment, it is not yet 
subject to Highway Trust Fund dollars. So we are going to 
continue to work to make sure this is not just an orphan 
authorization sitting out there, but it actually is an avenue 
for providing access to Highway Trust Fund dollars. I thank you 
for showing me the nodding heads in support of that.
    Similarly, port electrification, that can be very valuable 
to nearby communities, when you are not requiring ships to run 
bunker-fueled engines to keep the power on, that there is in 
fact enough local electricity to run a clean port. Again, that 
is part of our very important transportation infrastructure, 
and I am hoping that can get in to trust fund dollars.
    So I guess I conclude with 2 seconds over, with that. Many 
thanks to many for great work so far, and we look forward to 
wrapping this up with those issues resolved to our 
satisfaction. Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse, for all of 
your help and all your cooperation and contributions.
    Senator Markey. Thank you, Mr. Chairman. Complete streets 
are designed to provide safe and accessible options for 
multiple modes of travel, as well as for people of all ages and 
abilities. Streets should accommodate pedestrians, bicyclists 
and public transit users, not just cars and freight vehicles. 
Streets should also be safe for children, older individuals and 
individuals with disabilities.
    That is why I am today introducing the Complete Streets 
Act. My legislation will promote these kinds of neighborhoods 
by requiring that States set aside a portion of their Federal 
Highway money to create a competitive grant program to fund 
Complete Streets projects at the regional and local level. I am 
proud that my legislation has been endorsed by Uber, Lyft and 
Via.
    Ms. Arroyo, do you believe that a Complete Streets approach 
to our transportation network is an important priority for 
surface transportation reauthorization?
    Ms. Arroyo. Absolutely. It is really important to give 
people alternatives. It is something that we covered in the 
future of the interState highway system study, especially in 
urban areas with the congestion, and suburban areas, giving 
people safe alternatives like Complete Streets, investment in 
transit, arterial roads is as important as doing things on the 
highway itself. So thank you for your leadership.
    Senator Markey. Thank you. So the transportation sector is 
our largest source of greenhouse gas emissions. In fact, 
vehicles driving on our roads represent 83 percent of those 
emissions. I have been working with Senator Carper and other 
members of the committee to focus on establishing goals and 
standards to reduce greenhouse gas emissions in the Federal 
Highway program. I have been working on legislation to 
accomplish this.
    It is my hope that these principles can be included in the 
final Surface Transportation bill that the committee produces. 
We greatly appreciate the openness from the chairman on these 
concepts, given the reality our States are facing.
    So again, Professor Arroyo, do you believe that reducing 
emissions in transportation is imperative to avert the worst 
effects of climate crisis?
    Ms. Arroyo. Absolutely. It is the largest source, as you 
just said, of emissions. We have to tackle it.
    Senator Markey. Do the States have the resources to 
accomplish those goals right now?
    Ms. Arroyo. No, they do not. Part of why the States have 
banded together in the Transportation and Climate Initiative is 
to look at the twin challenges of the lower revenue that the 
transportation system is getting at the same time that we need 
to increase investment in low-carbon transportation solutions. 
So, looking at that together.
    Senator Markey. So it makes sense then that any bill that 
we are going to be passing creates incentives to try to 
accomplish those?
    Ms. Arroyo. Yes. If you can help invest in some of those 
strategies, they would be very grateful.
    Senator Markey. Thank you. And we must also respond to the 
impacts of climate change that are happening now, rising 
temperatures, sea level rise and more powerful coastal storms. 
Our infrastructure is not as resilient to climate change as it 
should be. There are only two bridges that connect Cape Cod to 
the rest of Massachusetts. Should an extreme weather event 
strike the Cape, these bridges would serve as vital escape 
routes for residents and vacationers alike. However, these 
bridges are currently in a dire State of disrepair and must be 
replaced.
    In response to those concerns, I have introduced the ESCAPE 
Act, which would provide Federal funding for State, local and 
tribal governments to strengthen and protect essential 
evacuation routes, or construct new routes. Professor Arroyo, 
again, are current evacuation routes in our Country sufficient 
to deal with extreme weather events?
    Ms. Arroyo. No, and on this I can speak from personal 
experience, in addition to the fact that I work on these 
issues. Because I am from New Orleans. My father, Sydney 
Arroyo, lost his life in the evacuation from Hurricane Ivan, 
which was a very stressful evacuation in 2004.
    Senator Markey. I am so sorry.
    Ms. Arroyo. And the fact that evacuation and the contraflow 
issues were so severe meant that a lot of people chose to stay 
at home the next year when Katrina hit, and obviously, over 
1,000 people died from that, because they didn't leave, because 
of the faulty evacuation the year before.
    So thank you for your leadership on that as well.
    Senator Markey. Thank you, and we are so sorry for the 
tragedy.
    So you believe that a surface transportation 
reauthorization should include substantial direct funding and 
grants for States and municipalities to improve resilience?
    Ms. Arroyo. Yes, we appreciate that.
    Senator Markey. Thank you. So, I think that is something 
that we just have to make a priority as we work through the 
legislation, just to ensure that we protect against what is 
inevitable, if we don't take action. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you so very much.
    Mr. Braceras, the Trump Administration has developed and 
implemented a one Federal decision policy for large, complex 
infrastructure projects. Among other things, one Federal 
decision requires Federal agencies to develop formal processes, 
as you know, for developing a schedule, for elevating disputes, 
and then also for working together to complete reviews and 
authorizations within 2 years. That is the whole goal of this 
one Federal decision.
    Many of these elements are already the law, but some key 
aspects of one Federal decision, like the 2-year goal, are 
still missing. So could you, in your view, talk a little bit 
about this and would State departments of transportation 
benefit from adding the missing elements of one Federal 
decision to existing statute? And what else would you 
recommend?
    Mr. Braceras. Thank you, Mr. Chairman. Utah and AASHTO 
applauds the Trump Administration's goal here of trying to make 
this process more efficient and effective. Any time we can make 
this process easier and faster, we are going to improve the 
investment of public dollars.
    I believe we have to look at the 2-year goal kind of in the 
same light that I look at my goal in Utah of zero fatalities. 
It is a bold goal. But there is a lot of underlying details 
that I believe will make attaining that goal more difficult 
than it may sound initially.
    There is also, I think just from a challenge perspective, 
it makes sense to have one Federal agency take the lead on this 
and to be a champion for this decision, instead of basically 
passing you off between different Federal agencies. So we 
really like what the goal is stating and where it is going. We 
believe there is a lot of work that needs to be put into it to 
make that a reality.
    Senator Barrasso. Anyone else want to add to that? Thoughts 
on that?
    Mr. Reiner. Mr. Chairman, from our perspective, we are 
certainly confident that schedules can be shortened, really 
without reducing environmental protection concerns.
    Senator Barrasso. Good. And also for you, Mr. Reiner and 
Mr. Braceras, one of the safety issues that disproportionately 
affects several States with membership on this committee is 
wildlife-vehicle safety. Not necessarily just in the Rocky 
Mountain West, but all across the Country.
    According to a recent study, Wyoming, West Virginia, Iowa, 
South Dakota, Mississippi, represent five of the top ten States 
for incidents of deer-vehicle collisions. In Wyoming, roughly 
15 percent of all reported vehicle collisions involve big game 
animals. This adds up to more than 6,000 annual collisions, 
costing nearly $50 million in damages to vehicles, and human 
injury as a result. As a surgeon, I have taken care of people 
involved in these situations, wildlife loss, it happens every 
year.
    Fortunately, research shows that effective measures, such 
as wildlife crossing structures, can reduce wildlife-vehicle 
collisions, they say by up to 80 percent. So could the two of 
you, and if any of you have other issues or knowledge about the 
issue, do you believe this is an area where Federal Government 
could help States do more to reduce collisions, and what might 
those be?
    Mr. Reiner. Thank you, Mr. Chairman. Certainly the short 
answer is yes, we do think there are some issues that the 
Federal Government could help with. Wyoming has been a national 
leader in improving safety for humans and animals alike by 
building the crossings that you discussed, and upgrading 
fencing and making some other improvements.
    We have game migration and collision data, we have 
identified or prioritized a top ten list of locations for 
crossing improvements. In locations where we have installed 
crossings in the past in our State, we have seen dramatic 
reductions in collisions. What we lack, and where the Federal 
Government could assist, is adequate, flexible funding to 
address these crossing issues and we certainly hope to find 
help in the committee's bill.
    Senator Barrasso. From AASHTO's standpoint, what do you 
see?
    Mr. Braceras. Yes, this is an important area, and it is 
both from the safety perspective that you mentioned, Mr. 
Chairman, but it is also from an economic perspective. In the 
State of Utah, our big game is a very important part of our 
economy. It is really a defining element of our State. A lot of 
our families, that is their thing that they look back on that 
talks about what is important to them.
    We just recently completed, using Federal money, we just 
recently completed a major bridge over InterState 80, an 
eight--lane section of I-80, between Salt Lake and Park City. 
We usually like to tell people that we need 3 years of data 
before we want to talk about this being a success.
    Well, the media started getting some of the pictures of the 
cameras that we have set up there. And even the wildlife 
professionals have been shocked at how quickly the game have 
become accustomed to this. It is wide enough, and it is built 
in a natural way. We are not letting people or bikers go on 
that. As a biker, I was disappointed.
    [Laughter.]
    Mr. Braceras. But it is being very successful. We have, 
with the combination of the crossing in the right place, 
because you can't force it, you have to look at the migration 
patterns, that, with the wildlife fencing, we have had a 
dramatic decrease in crashes. This is moose crashes with cars 
and deer. And a moose with a car is quite a bit different 
situation than a deer.
    Senator Barrasso. The moose often walks away, the driver 
often does not. These are amazing. This is a major collision.
    Ms. Wicks, I don't know from a Delaware standpoint, but 
certainly neighboring States, Pennsylvania, New Jersey, New 
York, this is not just a Rocky Mountain west issue, is it?
    Ms. Wicks. No, and you are right, we don't have the moose. 
But deer certainly are a part of the issues that we wrestle 
with as a State. We haven't, to my knowledge, looked directly 
for an overpass like that. But a lot of the rural roads, it is 
happening there. You wouldn't have the ability to have the 
kinds of crossing you are referring to. But the challenge is 
for all of us.
    Senator Barrasso. And to Mr. Braceras and Mr. Reiner, minor 
projects in the operational rights of ways often address 
preventive maintenance, preservation, safety issues, the things 
that you just need to do as part of the routine maintenance. 
But before proceeding to construction, often State departments 
of transportation need to get Federal permits or approvals for 
these projects in the right of way. Some of the Federal 
agencies can be slow in terms of evaluating or even to respond 
to you for the requests.
    I don't know if either of you have run into problems in 
Utah or Wyoming ,and what can we do to incentivize Federal 
agencies to be more responsive to State departments of 
transportation, working on maintenance and preservation and 
safety projects?
    Mr. Braceras. Thank you, Mr. Chairman. Maybe just a few 
elements on this. This was an important element to the former 
chairman of this committee, Chairman Inhofe, at the time, on 
the operational right of way. When we go and build a road, or 
widen a road, we do an environmental document, we go through a 
very deliberate process on this, and we clear that for 
operational right of way. Then if we have to come back and do 
some maintenance work, we typically have to go back and go 
through that permitting process again, which seems redundant. 
What we have done in Utah is we have taken advantage of some of 
the tools that you have provided to us.
    What we have done is, we have taken on NEPA assignment. 
Through NEPA assignment, we have been able to become the 
decisionmakers to be able to make those decisions much quicker 
within that operational right of way. It has saved us time and 
money, Mr. Chairman.
    Senator Barrasso. I know that Senator Braun is going to be 
coming back, I will get to you in a second, Mr. Reiner. He is 
going to be coming back and he has some additional questions. 
You just heard the buzzer, which means the second vote has 
started, and he was going to speak, he was going to vote at the 
end of the first and the beginning of the second, but they 
didn't close the first vote until Senator Whitehouse got there.
    [Laughter.]
    Senator Barrasso. This is known as a transportation 
program. So this is why we are having this hearing today.
    Mr. Reiner. Thank you, Mr. Chairman. To add to Mr. 
Braceras, really in our mind I think allowing other agencies 
the opportunity to use categorical exclusions which are 
available to the Federal Highway Administration would help 
speed up the environmental review process, and would still 
certainly allow us to protect the environment.
    Senator Barrasso. Thanks. And Mr. Kuney, what has been your 
experience from the contracting side, when Congress fails to 
enact a highway bill, States don't know much funding is going 
to be available? I think we heard from Mr. Reiner, it is 
slower, smaller projects, I think is the way you put it.
    So I am especially interested in understanding how that 
uncertainty can affect things like what you do in terms of 
project delivery schedules, costs, equipment, purchases, 
hiring, how that all plays out when you have so much 
uncertainty.
    Mr. Kuney. That uncertainty certainly flows right downhill 
to the contracting community. We look at the STIP, we look at 
the 6-month projections and different DOTs do different things. 
But we absolutely are using those to plan what the 
opportunities are in the future, what projects we are going to 
chase, where we think the market will be.
    If we know that our folks at the DOT aren't sure if they 
are really going to have any projects, then we are certainly 
going to be looking at hiring, we are going to be looking at 
investing in our employees, we are going to be looking at 
equipment. We are probably going to be cutting back on all of 
that, because unless we know that there is going to be a market 
in the future, you can't make those investments.
    The other problem, too, and I think Carlos, you said this, 
but when funding comes, you can't just all dump it in one big 
chunk, too. Because first of all, now everybody is unprepared. 
They have been holding off on investments. You dump a whole 
bunch of work on everybody all at once, and you are going to 
get higher prices because people are going to have to pick and 
choose. They aren't going to be geared up for that level of 
work.
    So this up and down thing is really hard on our work force, 
frankly, both the craft workers and the engineers. Because you 
can't keep gearing up and down constantly. So the smooth level 
probably hopefully trending upward line is the best for the 
contracting community.
    Senator Barrasso. Thanks. Director Braceras, innovations 
can help save project costs. They can help us do things faster, 
better, cheaper, smarter, accelerate project delivery. What 
more can the Federal Government do to support and encourage 
States to use innovation and technological developments and 
deployment of the technology that is out there to deliver 
highway projects faster, better, cheaper? What kinds of things 
do you see that would work?
    Mr. Braceras. Mr. Chairman, it is all about partnership. 
When I talked to Senator Whitehouse's comments, I talked about 
the risks that States take when we do something different, 
something new. I mean, we are inherently--we have been trained 
to be risk-averse. There are very little accolades coming from 
taking a risk and being successful, but we are pretty good in 
the media, and I am sure Members of Congress know how this 
goes, at being punished for perceived mistakes. So we tend not 
to be the riskiest types of people.
    What the Federal Government has done really well, I will 
give an example. We were the first State to build a bridge off 
to the side of the highway and then move it into place on an 
interState over the weekend. When we did that, yes, there was 
additional cost. When the media came and said, how much extra 
money is this costing, I was able to say, it is about $600,000 
but the Federal Government gave me a grant to cover that 
additional cost, that additional risk. I was able to pass that 
kind of red-face test that you have to do with the media and 
with my legislators.
    So that type of partnership, to help us make that step 
forward, to implement something new, something exciting, 
something that is going to benefit the entire Country in the 
future, would be really good for Congress to do.
    Senator Barrasso. What did you call that, the red-face 
test?
    Mr. Braceras. Yes, that is what I tell folks. When you are 
standing in front of the media or my legislature, if you can 
pass the red-face test, so you are not getting embarrassed 
about what you are saying, then you are probably doing 
something OK.
    Senator Barrasso. We will share with the other members of 
the committee. They may find it helpful someday.
    [Laughter.]
    Senator Barrasso. Thank you very much. Senator Braun.
    Senator Braun. Thank you, Mr. Chairman. This is when the 
Senate really moves, when you are in an Aging Committee about 
45 minutes ago and you go make two votes, and then you hustle 
back here. I didn't want to miss it because--and put on a tie.
    [Laughter.]
    Senator Braun. I am setting a new sartorial trend here in 
the Senate, no ties until you go on the Chamber floor. I don't 
think anybody has followed suit yet, but maybe in time.
    Infrastructure is a big deal to me. I was a State 
legislator in Indiana and ran for the State legislature for one 
reason: roads and bridges. I live in the southern part of our 
State, and we have always been the stepchild of infrastructure 
in Indiana. We are the crossroads of America. When I had the 
stark realization, when I went there, to be a proponent for a 
road in my neck of the woods, I got dressed down quickly; do 
not come here asking about a road, help us figure out how to 
pay for it.
    So I took that seriously, and in 2017 I served 3 years. We 
actually passed long-term road funding. I am going to give you 
a few things that stand out vividly.
    Seventy percent of Hoosiers wanted better roads and 
bridges. Seventy percent did not want their taxes raised to pay 
for it. That was depressing.
    Tolling, we polled that significantly. Everyone was for a 
toll road if they didn't live near one. So it got to be very 
complicated as to how you would do it.
    We have not raised the gas and diesel tax in many years, I 
think it was 2002, maybe. That was a stretch of 15 years. Here 
I think it has been 1993.
    So with that being said, I did, along with being a rookie 
there, and a co-author of the road funding bill, which I was 
very proud of, we put a stream of cash-flow out, nearly a 
billion dollars a year, that would get to a billion after 
three, four, 5 years, and then continue on that plane through 
10 years. Then we will have to look at what the next round of 
funding would be.
    We are going to address all of our tier one projects, which 
includes a bridge across the Ohio, completing InterState 69. I 
also authored a bill that I think is going to be the essence of 
what we do here, and in other places. And that is to somehow 
figure out how you get skin in the game from all the government 
entities that are below the Federal Government.
    The reason I say that is, I am a finance guy, a Main Street 
entrepreneur. The balance sheet could not be worse here to take 
on a project that is anywhere from a couple trillion to four 
trillion, if you want to really do it right across the Country. 
I am worried about that. I am worried about that for defending 
our Country, I am worried about that for infrastructure, and I 
am worried about that for the three programs that most would 
think are important here that are going to quickly not fund 
themselves anymore: Medicare, Social security and Medicaid.
    So how do we do it? There I crafted a bill, it was called, 
it was through a regional development authority. Areas like 
mine have always been interested in infrastructure, never had 
any involvement in its own destiny, or a way to pay of it. We 
got a bill across in 1 year that both the head of 
transportation and ways and means, both of which I sat on, said 
it was going to be too complicated to do, but we did it. 
Because the need was there. We were losing infrastructure to 
the tune of 5 percent a year in maintenance and deterioration.
    Long story short, that was 2017. In 2018, we teed up that 
bill with a regional development authority, raised $7 million 
between local governments, led first by local industry, to 
shame the local governments into matching it, paid for the EIS, 
environmental impact study. We are now doing something that we 
had talked about for 40 years.
    We also did something called community crossings grants, 
and that was cities and counties always asking for the State to 
do more. Well, someone had a novel idea, and as soon as I heard 
it, I got with it and said, hey, let's throw $100 million out 
there on a 50-50 match. The complaining was, it is your 
responsibility, we don't want to pay for any of it, over-
subscribed in the first year. It is now into its second or 
third year, and it is the most popular program there, because 
we are fixing roads and bridges.
    I think you can get where I am coming from. This place, if 
you are looking to the general fund to pay for anything, you 
don't have an eighth-grade arithmetic education, you certainly 
don't know anything about the finance. And transferring from 
the general fund, when the general fund is running trillion-
dollar deficits, that wouldn't fly anywhere else.
    So I think the solution is, I have introduced an idea of 
infra grants, which we will discuss, to where we start letting 
States that have been responsible to bid for more of the 
infrastructure bill. Start encouraging skin in the game, 
especially when you are looking at a place like this that has 
set a very bad example to defend our Country and pay for it, to 
take care of infrastructure or entitlement programs.
    By virtue of, I think I am the last one here other than 
Senator Carper, I am going to run a little bit over my time and 
take advantage of it. I do want to ask the question, do you 
think in your own mind, and whoever wants to jump in and answer 
the question, how can we pay for infrastructure with the 
financial condition that the Federal Government is in, and the 
only other options are States who have great balance sheets, 
mostly, the private sector since 2008 has great balance sheets 
through private-public partnerships, which I know some people 
don't like.
    Aren't we just whistling into the wind if we think that you 
can continue like we have been relying on general fund 
transfers without at least doing what the chairman suggested, 
raising user fees, which we did in Indiana? Forty-eight out of 
50 testifiers, other than the Petroleum Institute and the 
Americans for Prosperity, who I generally would agree with, but 
I believe a user fee needs to be paid, the tool that you are 
going to use to pay for infrastructure. Give me your honest 
opinions, because you can see what mine is.
    Mr. Braceras. I will be the first to step out, and I will 
say I am speaking as Executive Director of UDOT right now. 
AASHTO is working on trying to bring forward----
    Senator Carper. Let me just interject a second. I want to 
hear all you have to say. We have one more vote, and I have two 
places I am supposed to be, so I would ask you if you could, 
just to be brief. Thank you. It is an important question.
    Mr. Braceras. Thank you. AASHTO is trying to bring forward 
specific revenue suggestions, but won't have those votes done 
until our annual meeting later this fall. So I am going to 
speak from UDOT. I believe we need to be user-based, I believe 
we need to have it, I believe the gas tax is the right way to 
go initially, looking at road usage charges in the 10 to 15-
year timeframe.
    As a State that is only about 19 percent of our program is 
Federal funded, the rest is State funded. I like the idea of 
recognizing those States that have been able to self-help. But 
there is a need for a Federal national transportation system. 
The State of Utah relies on good roads in Arkansas, it relies 
on good roads in Mississippi. Our businesses need to have that 
national transportation system.
    So because we have been able to help ourselves, it might 
not be the same case in other States. I believe, if you want to 
look at tolling, there are places for tolling. But for us, the 
challenge is, on the interState we can only go apply for a 
pilot program. So it is one road versus another road.
    I think if we are successful at tolling, we are going to 
have to toll a system, so that there is a little bit more 
fairness across the board. So our legislature has given us as a 
department and our commission the authority to make those 
tolling decisions. That is my comment.
    Senator Braun. Thank you.
    Mr. Kuney. AGC certainly supports that the Highway Trust 
Fund needs to be funded by the users of the system, and a user 
fee is the best way to do that. The gas tax is obviously the 
one that is in place right now. But those who benefit from the 
use of the system need to be the ones to pay for it.
    Ms. Wicks. I concur with my colleagues. Being able to 
support user fees is the way to go. It is not always easy, 
though, on existing road systems that you already have to do 
that. Transitioning to mileage-based user fees is something we 
should not take our eye off the ball, because that may be a 
more equitable way to generate those funds.
    Ms. Arroyo. Thanks for the question. This is something that 
we looked at in the future of the interState highway system and 
talked about alternatives, some of which are being piloted by 
the States, like mileage-based user fees, tolling, even on 
highways, but the feds would have to allow that, like we are 
doing now in Virginia in I-66 inside the beltway. States are 
raising their gas taxes. As you said, it was 1993 since that 
has been done.
    Because I work on climate with the States, I see carbon 
pricing as a potential solution, because then you are creating 
a disincentive to have carbon-based fuels. While I am on that 
topic, I will just mention that there are significant 
subsidies, still, to fossil fuels in the U.S. The range is from 
$5 billion to $15 billion that could probably be saved. That 
doesn't factor in the cost, of course, to the military budget 
or the cost of externalities in terms of air pollution, which 
is well over $100 billion.
    Then finally, large trucks on the roads, Class A trucks, 
are probably underpaying their share based on the roadway 
impact relative to their weight and their use. That might be 
something else to look at.
    Senator Braun.
    [Presiding]. Thank you.
    Mr. Reiner. Senator, I would certainly say it is one of the 
options that needs to be explored.
    Senator Braun. Very good. And that was one of the hardest 
things, as a fiscal conservative in Indiana, I got up on the 
microphone and actually depicted how much it would cost my own 
trucking company. Every trucking company in the State of 
Indiana was for the higher diesel tax, which was 20 cents, and 
the gasoline tax was 10 cents. Thank you.
    Senator Carper. On the proposals for more revenues, 
including user fees, one of the strongest advocates for that 
are the trucking folks. And they conditions of the roads, 
highways, bridges, every day, they are willing to do their 
part. This actually should be helpful to us and give us the 
courage to do the right thing.
    Senator Braun. Exactly.
    Senator Carper. Thank you. One question and then I have to 
run. Thank you all so much for coming, this has been great. A 
special thanks to Secretary Carolann Wicks, but all of you as 
well. It is great to see you.
    A question for Ms. Arroyo. How can the highway bill, how 
can a transportation bill encourage States to try to reduce the 
climate impacts of driving on the highway system, including 
reducing vehicle miles traveled in single occupancy vehicles 
with internal combustion engines? How can we do that, 
especially with a focus on reducing vehicle miles traveled in 
single occupancy vehicles with internal combustion engines?
    Ms. Arroyo. Sure. So again, price signals like tolling or 
carbon pricing would make a difference, especially if you 
reinvest those proceeds in alternatives to internal combustion 
vehicles. That might include continuing the support for 
electric vehicles, building up the charging infrastructure, as 
we discussed, based on what the State and regional folks are 
already trying to do with interState corridor planning but 
don't have the funds to actually implement.
    Looking at investing in maybe cash on the hood for EVs as 
opposed to credits later, so that other people, including 
people who can't afford EVs right now might be able to afford 
them up front, investing in alternatives like transit-oriented 
development, Complete Streets, things that allow people to have 
active transportation as an alternative to conventional highway 
use.
    Senator Carper. That is a pretty good list. A quick 
question, if I could, for Carolann Wicks and Carlos. What 
changes do we need to make in this reauthorization bill to help 
the public understand what they are getting from highway 
spending, from transportation spending? Very briefly, please.
    Ms. Wicks. I think we mentioned earlier that there is a 
great recognition by the public when we have community-based 
improvements. So the TAP program really focuses on things that 
need, you know, Main Street, USA. And people recognize then 
that their tax dollars are going to something right in their 
community, things that are very important to their own safety, 
to their biking and walking, their businesses, all of those 
things contribute to a healthy local economy.
    I think once you have been able to help the public see 
those realities, those on the ground projects, being able to 
then promote and talk about larger projects is going to be an 
easier way to prove to the public that their investments are 
going to go to the right places, and that it is a long-term 
investment. Not everything can be done as quickly. But once you 
have proven some of the good projects and the things that 
people want in their own backyard, it will go a long way to 
being able to convey the entire program's needs.
    Senator Carper. Good. Thank you. The last word, yes.
    Mr. Braceras. I think we have to do a better job describing 
why we do what we do. As an engineer, we like to talk about 
bridge sufficiency ratings, we like to talk about pavement 
smoothings. I think we need to be talking more directly with 
the public about why we are doing this project here, what is 
the benefit they are going to see from this project, will they 
see less maintenance on their vehicles, will they see a safer 
facility where there will be less crashes happening.
    We just have not tied that to the type of funding that we 
are providing right now. It is a little bit more difficult to 
do. Engineers aren't the best communicators in the world. But I 
believe we can do a better job communicating why transportation 
is important to our economy and the quality of life and tying 
the Federal program to that more directly I think will help the 
public get behind the difficult decisions that have to be made.
    Senator Carper. Good. You said engineers aren't the best 
communicators. Really, some of you are engineers, and I think 
you have done a pretty good job communicating today. Message 
sent and received. Thank you so much. God bless you all, great 
to see you. Thank you.
    Senator Braun. With no further questions, members, who are 
mostly vacated, can submit questions to the record for up to 2 
weeks. We did have a lively discussion here, because it is such 
an important issue. I want to especially thank all of you for 
great conversation. You can see that we know the need is there. 
We have to figure out how to pay for it.
    Thank you so much for coming in to discuss our Nation's 
surface transportation needs. This hearing is adjourned. Thank 
you.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
